NATIONAL SCIENCE FOUNDATION
OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF MVESTIGATIONS

                                 I ACTION MEMORANDUM
TO: AIGI                                           FILE NUMBER
                                                       1-01030005
                                                                              DATE
                                                                              July 25.2001
                                                                                                    1


Th.h.Ofice

              -
            of Inspector ~eberalreceived information alleging that l


produced a viable product.
                                 -


 On March 2 1,200 1, Special Agen-                     FBI, ->dvsied
                                                                                '           -
       illegally obtained grant funds. It was reported by scientists involved in a grant review
process, that                               received numerous awards fiom federal entities but never




 and requested any assistance that may further the investigation. The U.S. Attorney's Office,
-)subsequently
                                                                                                '1
                                                                                                    -




                                                                                               officials of
m a r e suspected of misrdpresenting, to the U.S. Air Force, their relationship with a subcontractor

                                    determined that they would not pursue the allegation develoded by
 our office,bince it did not rise to the level of criminal activity currently under investigation b$ the
 FBI.
                             I
All relevant casework in this matter has been completed and entered into the OIG database. No
further investigative action is warranted. Based on the above, it is recommended that this case be
closed.                                                                                       /I




 COPIES MADE:
              PREPARED                      CLEARED BY:
                 BY:         Y
                                           SAC:              AlGI
